September 20, 2002
Audit Report No. 02-032


Receivership Termination Activity
                                 CONTENTS


BACKGROUND                                                1

     Receivership and the Termination Process             1

     The Receivership Termination System                  4

     The Government Performance and Results Act           4

RESULTS OF AUDIT                                          5

PERFORMANCE PLANNING FOR TERMINATION
ACTIVITY SHOULD INCLUDE PRE-2000 RECEIVERSHIPS            6

     Table 1: Receivership Termination Goals              7

RECOMMENDATIONS                                           8

CORPORATION COMMENTS AND OIG EVALUATION                   8

APPENDIX I:       Objectives, Scope, and Methodology      10

APPENDIX II:      Summary of Prior Coverage               14

APPENDIX III:     Pertinent Laws, Regulations, and FDIC
                  Policies and Procedures                 15

APPENDIX IV:      Corporation Comments                    17
equitably to creditors.5 The duration of a receivership is dependent on many factors,
including the progress made in reconciling accounting information, liquidating assets, and
resolving litigation. The 168 receiverships active as of January 1, 2002 had an average age of
8.7 years.

When the business affairs of a receivership are substantially complete, the FDIC considers a
number of factors in deciding whether termination6 is indicated. The DRR Failed Institution
Receivership Termination Manual (Termination Manual)7 lists the following factors that have
a bearing on the decision to terminate:

•   Status and book value of remaining receivership assets is $15 million or less,
•   Receivership cash flow,
•   Likelihood of repaying all receivership creditors,
•   Extent of litigation,
•   Unresolved environmental issues,
•   Status of tax issues and employee benefit plans,8
•   Termination legal requirements, and
•   Potential liability to the Corporation.

To be eligible for termination, a receivership must be free of impediments that represent
material financial or legal risks to the FDIC. These impediments may include: outstanding
contractual liabilities, outstanding offensive or defensive litigation, potential representation
and warranty asset sale claims,9 open employee benefit plans, open subsidiary corporations
where articles of dissolution have been approved,10 and known or potential environmental
contamination liabilities.11

When the factors above no longer pose material impediments, DRR usually selects a
Termination Coordinator (TC) who is responsible for ensuring that all necessary pre-

5
  Prior to August 10, 1993 the law in effect at the time the institution failed determined the priority in which the
proven claimants received dividends. All receiverships established after August 10, 1993, must distribute
dividends according to the Federal Deposit Insurance Act, 12 U.S.C. § 1821(d)(11)(A), which mandates the
following priorities: a) administrative expenses of the receiver, b) any deposit liability of the institution,
c) any other general or senior liability of the institution, d) any subordinated obligations, and e) any obligations
to the shareholders or members (including holding companies and their creditors).
6
  A process by which the operations of a receivership are concluded and the entity ceases to exist.
7
  The FDIC Board of Directors has delegated primary authority for terminating receiverships to DRR.
8
  A pension, profit-sharing, or stock bonus plan established by the institution or employee organization (prior to
receivership) for the benefit of employees, including plans qualifying under Sections 401(a) or 401(k) of the IRS
Code of 1954.
9
  The FDIC in its Corporate capacity will assume the post-termination obligation to indemnify purchasers
through representations and warranties of assets if those loans and loan related assets were sold with a Corporate
Guarantee.
10
   A method of disposition that allows a corporation to terminate the subsidiary’s existence and pay a liquidating
dividend to its shareholders for any assets in excess of corporate liabilities.
11
   An identified or possible environmental issue regarding contamination of real property that may reduce the
property’s value and subject FDIC to environmental corrective action, regulatory compliance, toxic tort liability
for environmental personal injury, or civil/criminal penalties for noncompliance.



                                                         2
termination and post-termination steps are completed. The TC also notifies all FDIC program
areas of significant events and creates and maintains files.

The successful completion of the receivership termination process requires continuous
cooperation and coordination among DRR, the Division of Finance, the Legal Division, and
the Division of Administration. DRR provides a list of assets subject to environmental
review, environmental liability assessments, confirmation of legal notices, a list of
outstanding claims, confirmation of the termination of employee benefit plans, confirmation
that the settlement process12 has been completed, confirmation that all subsidiaries have been
identified, identification of repurchases13 that may impact the termination, and identification
of industrial revenue bonds14 with outstanding letters of credit.15 DRR’s Receivership
Management Branch staff in Dallas has primary responsibility for receivership termination
activity.

The Division of Finance is responsible for reconciling liability accounts, paying outstanding
receivership expenses, preparing receivership financial statements, posting journal entries,
and writing off remaining liabilities of the receivership. The Legal Division handles
defensive litigation matters, professional liability issues, and legal matters related to
environmental concerns. The Division of Administration is responsible for identifying any
contracting issues that may impact receivership termination activity. 16

According to the DRR Termination Manual, receivership termination normally encompasses
the following steps:

•    Providing notice of the termination to all interested parties,
•    Converting the remaining assets to cash,
•    Declaring and paying a final dividend17 (if funds are available),
•    Establishing appropriate reserves for any liabilities assumed by the FDIC, and
•    Issuing a Certificate of Termination.

When a receivership is terminated, some assets and liabilities may remain. In these instances,
receivership assets and certain liabilities are transferred to FDIC Corporate through a
corporate purchase and assumption agreement. In the event that a receivership asset is
discovered after termination, the agreement provides a mechanism for transferring the asset to
12
   Settlement is the final disposition of accounts between a receiver and a failed bank acquirer. It is a process
that normally takes place after closing a sales transaction with an acquirer.
13
   A previously sold asset required by indemnification covenants to be bought back from the original buyer
because of violations to the original sales contract.
14
   Municipal bonds whose proceeds are loaned to private persons or to businesses to finance capital investment
projects.
15
   Document issued by a financial institution guaranteeing the payment of a customer’s drafts up to a stated
amount for a specified period.
16
   A receivership executes contracts for loan servicing, asset management, and other goods and services, which
are administered by the Division of Administration. Contracting issues include whether the FDIC should assume
the contracts in its Corporate capacity or terminate them. Factors to be identified and reviewed in this decision
include contract-related claims, disputes, and litigation from active and expired contracts for possible financial
risk to the FDIC.
17
   The final distribution of all remaining receivership funds (cash & non-cash).


                                                        3
Corporate on behalf of the receivership. The agreement specifically states that Corporate will
assume no other liabilities of the receivership.

The Receivership Termination System

Information on termination activity is reflected in DRR’s Receivership Termination System
(RTS). RTS tracks receiverships through the termination process and assists DRR in meeting
annual termination goals. The system tracks active and terminated receiverships, along with
the impediments to termination and termination milestone dates. RTS is an Oracle database
application. The Division of Information Resources Management has classified the RTS as a
non-major application for purposes of Office of Management and Budget Circular A-130,
Appendix III.18

The Government Performance and Results Act

The Government Performance and Results Act of 1993 (Public Law 103-62) (GPRA) requires
the head of each agency to prepare and submit: (1) a strategic plan covering not less than 5
years to the Director of the Office of Management and Budget (OMB) and to the Congress,
(2) annual performance plans to OMB, and (3) annual program performance reports to the
President and the Congress.19 The Legal Division concluded that the FDIC is subject to
GPRA, to the extent that the FDIC is required to prepare and submit the three reports.
Appendix III of this report discusses GPRA’s applicability to the FDIC in more detail.

GPRA was enacted to:
• improve the confidence of the American people in the capability of the federal
  government by systematically holding federal agencies accountable for achieving program
  results;
• initiate program performance reform with a series of pilot projects in setting program
  goals, measuring program performance against those goals, and reporting publicly on their
  progress;
• improve federal program effectiveness and public accountability by promoting a new
  focus on results, service quality, and customer satisfaction;
• help federal managers improve service delivery, by requiring that they plan for meeting
  program objectives and by providing them with information about program results and
  service quality;
• improve congressional decision-making by providing more objective information on
  achieving statutory objectives, and on the relative effectiveness and efficiency of federal
  programs and spending; and
• improve internal management of the federal government.



18
   Circular A-130, entitled Management of Federal Information Resources, Appendix III, requires that a “major
application” receive special attention to security due to the risk and magnitude of the harm resulting from the
application’s loss or misuse.
19
   Sections 3 and 4 of GPRA outline the strategic and annual reporting requirements and are codified to 5 U.S.C.
§306 and 31 U.S.C. §§1115-17, respectively.


                                                       4
Receivership Management is one of three major programs identified in the FDIC 2001-2006
Strategic Plan. The second strategic objective supporting the Receivership Management
Program states, “Receiverships are managed to maximize net return toward an orderly and
timely termination.” DRR has primary responsibility for establishing annual performance
planning goals, indicators, and targets20 over receivership termination activities in support of
the strategic objective. In establishing the termination performance indicators and targets for
2000 and 2001, DRR reviewed the status of each active receivership, including an analysis of
outstanding claims, liabilities, and other impediments.


RESULTS OF AUDIT

Based on our sample,21 DRR complied with FDIC policies and procedures for terminating
receiverships. DRR terminated, or was in the process of terminating, the receiverships in
accordance with FDIC policies and procedures as prescribed in the Failed Institution
Receivership Termination Manual. For the 6 terminated receiverships in the sample, we
verified that DRR followed its stated process in terminating the receiverships and the files
contained the required supporting documentation. For the 5 active receiverships in the
sample, we verified that DRR was following its stated process in attempting to terminate these
receiverships, but that there were open issues or impediments (such as litigation or
environmental concerns) that were preventing termination. Additional details on scope and
methodology are contained in Appendix I.

Additionally, tests of data contained in the Receivership Termination System for the sampled
receiverships showed that the data were accurate and complete. For the 11 sampled
receiverships, we concluded that selected information and dates in the original receivership
file documentation matched the data in the RTS. Also, access to RTS by FDIC employees
was appropriately limited.

We identified one area of concern related to DRR performance planning for receivership
termination activity. Specifically, DRR’s 2002 annual performance planning indicators and
targets do not cover all significant receivership termination activities. The FDIC 2002 Annual
Performance Plan contains one performance indicator and target related to terminating only
those receiverships established since January 1, 2000. DRR officials stated that uncertainties
for resolving various impediments associated with the pre-2000 receiverships complicated
estimating a meaningful performance target. As a result, only 11 of the 168 active
receiverships are associated with a performance indicator and target. To help maintain the
focus on terminating the older receiverships, DRR needs to include the pre-2000 receiverships
in performance planning for 2002 and future years.




20
   As used by the FDIC, the annual performance goal generally restates the long-term strategic objective. The
annual performance indicator describes the action to be achieved. The annual performance target describes a
numerical value to be achieved in relation to the indicator.
21
   We judgmentally selected 6 terminated receiverships and 5 active receiverships as of September 2001.


                                                       5
PERFORMANCE PLANNING FOR TERMINATION ACTIVITY SHOULD
INCLUDE PRE-2000 RECEIVERSHIPS

The FDIC 2002 Annual Performance Plan does not include a performance indicator and
target for termination activity attributable to 157, or 93 percent, of the 168 receiverships
active on January 1, 2002. DRR officials stated that uncertainties for resolving various legal,
environmental, and accounting issues associated with the pre-2000 receiverships made it
complicated for them to estimate a meaningful performance target. As a result, only 11 of
the 168 active receiverships are associated with a termination performance indicator and
target, and DRR risks losing focus on terminating the older receiverships.

The FDIC’s identification of receivership terminations within the second strategic objective of
the Receivership Management Program and within annual performance goals signifies the
activity as a central component to achieving the strategic goal of recovering funds for
creditors of failed insured depository institutions. While GPRA does not require performance
planning to cover the entirety of a given activity or program, including a performance
indicator and target covering the majority of receiverships in inventory would help the FDIC
maintain focus on achieving its strategic objective and annual performance goal for
termination activity.

DRR made significant progress terminating receiverships in 2000 and 2001 by closing 156
and 53,22 respectively. On January 1, 2002, 168 active receiverships remained in inventory
dating back to those established in 1987. Unlike in 2000 and 2001, DRR’s annual
performance planning for 2002 does not include a significant level of receivership termination
activity. The 2002 Annual Performance Plan contains one performance indicator and target
related to termination activities that covers receiverships established on or after January 1,
2000. As of January 1, 2002, only 11 of the 168 active receiverships had been established on
or after January 1, 2000. Further, the average age of the 157 active pre-2000 receiverships as
of January 1, 2002 was 9.3 years.

GPRA provides for strategic planning and performance measurement in the federal
government by requiring agencies to develop a strategic plan of not less than 5 years for
program activities, annual performance plans, and annual program performance reports.
GPRA requires that agency annual performance plans establish performance indicators to be
used in measuring or assessing the relevant outputs, service levels, or outcomes of major
programs or activities.

The FDIC’s 2001-2006 Strategic Plan identifies the Receivership Management Program as
one of three major FDIC programs. Orderly and timely termination of receiverships is one of
three objectives supporting the Receivership Management Program’s strategic goal of
recovering funds for creditors. In accordance with GPRA, annual performance plans have
been developed since 1999 to implement strategic goals and objectives. The annual
performance plan contains annual performance goals and associated indicators and targets.



22
     DRR includes as “terminated” one receivership transferred to the state of New York in 2001.


                                                         6
The FDIC’s strategic goals, annual performance goals, indicators and targets, and outcomes
related to receivership termination activity from 2000 forward are illustrated in Table 1.

Table 1: Receivership Termination Goals
  Year       Strategic Goal       Annual Performance Goal         Indicators and Targets    Target Met?
  2000       Receivership         Achieve a 35 percent    Indicator: Number of
             claims are           reduction in the number of
                                                          receiverships terminated.
             resolved in a fair   active receiverships in 2000.
                                                          Target: 35 percent
             and cost-effective                           reduction in the number
             manner.                                      of active receiverships.   Yesa
 2001        Receivership     The FDIC, as receiver,      Indicator: Reduction in
             claims are       manages the receivership    the number of active
             resolved in a fair
                              estate and its subsidiaries receiverships.
             and cost-effective
                              toward an orderly           Target: Inactivate 76 of
             manner.          termination.                the 106 active
                                                          receiverships not
                                                          impacted by goodwillb
                                                          claims in inventory at     Noc
                                                          January 1, 2001.
 2002     Recovery to         The FDIC, as receiver,      Indicator: Timely
          creditors is        manages the receivership    termination of new
          achieved.           estate and its subsidiaries receiverships.
                              toward an orderly           Target: Inactivate 75
                              termination.                percent of receiverships
                                                          managed through the        Goal requires
                                                          Receivership Oversight     no
                                                          Program within 3 years of terminations
                                                          the failure date (starting in 2002
                                                          with receiverships
                                                          established in the Year
                                                          2000).
Source: OIG Analysis of FDIC 2000, 2001, and 2002 Annual Performance Plans and information
        provided by DRR.
         a
           DRR planned for and terminated precisely 156 receiverships in 2000.
         b
           In the 1980s, The Federal Home Loan Bank Board permitted healthy savings and loans that were
         acquiring failing savings and loans to classify the failing institutions’ excess debt (or negative net
         worth) as supervisory goodwill for regulatory capital purposes. In 1989, Congress passed the Financial
         Institutions Reform, Recovery and Enforcement Act (FIRREA). FIRREA reformed capital standards
         including the elimination of goodwill for regulatory capital purposes. A number of these acquiring
         savings and loans themselves subsequently failed. Creditors of the failed institutions filed lawsuits
         against the U.S. Government for breach of contract and alleged that FIRREA’s elimination of goodwill
         contributed to the institutions’ failures. For DRR performance planning purposes, receiverships with
         FIRREA breach of contract claims are considered “goodwill receiverships.”
         c
           DRR terminated 53 receiverships in 2001. Thirty-five of the 53 were nongoodwill-related and
         counted towards completion of the target.

As indicated in Table 1, the 2002 performance indicator and target for terminating
receiverships covers only those receiverships that were established on or after January 1,
2000. DRR officials stated that uncertainties for resolving various legal, environmental, and
accounting issues associated with the pre-2000 receiverships made it complicated for them to
estimate a meaningful performance target.



                                                         7
Performance planning in 2000 and 2001 included terminations for pre-2000 receiverships.
Background information that supported 2000 and 2001 plans contained a discussion that the
performance targets were established after an exhaustive review of claims, liabilities, and
other impediments to termination.

While DRR established annual performance goal indicators and targets applicable to all active
receiverships in 2000 and all nongoodwill receiverships in 2001, DRR did not include 157, or
93 percent, of the 168 active receiverships in performance planning in 2002. Planning,
executing, and reporting on performance indicators and targets for all significant receivership
termination activities helps to ensure that emphasis is placed on achieving the Corporation’s
Receivership Management Program strategic goal and the related strategic objective. By not
setting a performance-planning indicator and target for the pre-2000 receivership termination
activity, DRR has no specific standard for measuring its performance and risks losing focus
on terminating the older receiverships. Further, because the 2002 performance indicator and
target cover receiverships dating back to January 2000 and allows 3 years to terminate, there
is no expectation for terminating any receiverships in 2002 for performance planning
purposes.

On February 1, 2002, the OIG was asked to comment on the Corporation’s draft 2002 Annual
Performance Plan. The OIG commented that it would be appropriate to include a second
indicator and target for terminating the pre-2000 active receiverships. In the final version of
the Plan, narrative information was added acknowledging the pre-2000 active receiverships
but DRR did not add a second performance measure. A second indicator and target is still
needed for the reasons cited above.


RECOMMENDATIONS

We recommend that the Director, DRR:

(1) Establish a 2002 interim performance indicator and target for the termination of pre-2000
    active receiverships.

(2) Develop performance indicators and targets that include all active receiverships when
    formulating future annual performance plans.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DRR, provided a written response, dated September 11, 2002, to the draft
report. The response is presented in Appendix IV to this report.

DRR concurred with the two recommendations. In response to Recommendation 1, DRR
established that 20 pre-2000 receiverships would be targeted for termination before the end of
2002, in addition to 52 receiverships terminated year-to-date through September 1.
Recommendation 1 is resolved, dispositioned, and closed.


                                               8
In response to Recommendation 2, DRR indicated that it would set appropriate annual goals
for the termination of all active receiverships during DRR’s normal goal-setting activities and
complete the process by November 30, 2002. Therefore, recommendation 2 is resolved but
will remain undispositioned and open for reporting purposes until we have determined that
agreed-to corrective action has been completed and is effective. DRR further indicated that
the normal goal-setting process would include setting internal goals for receiverships not
terminated within 3 years of the institution’s failure.

DRR’s response indicated that terminating 52 receiverships year-to-date and planning to
terminate 20 additional pre-2000 receiverships demonstrates that DRR is very familiar with
impediments to termination. In the last paragraph of this report’s Background section, we
acknowledge DRR’s familiarity with the status of each active receivership as part of its goal-
setting activities for 2000 and 2001. By establishing and articulating formal performance
indicators and targets, DRR can maintain a steady focus on program performance and
outcomes.




                                               9
                                                                                          APPENDIX I
OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to (1) determine whether DRR is terminating receiverships in
accordance with corporate policies and procedures, (2) evaluate the integrity and reliability of
data entered into DRR’s Receivership Terminations System, and (3) determine whether
DRR’s annual performance planning indicators cover significant receivership termination
activities. We performed our work from September 2001 through April 2002 in accordance
with generally accepted government auditing standards.

Scope and Methodology

The scope of our first objective, to determine whether DRR is terminating receiverships in
accordance with corporate policies and procedures, included active and terminated
receiverships as of September 1, 2001. We developed an audit universe of 203 active
receiverships, of which 96 did not involve goodwill-related litigation.1 From January 1, 2000
through September 1, 2001, the universe of terminated receiverships numbered 162. We
selected a judgmental sample (based on early bank failure dates) of 6 terminated receiverships
and 5 active receiverships for detailed review. The bank failure dates for the 6 terminated
receiverships ranged from April 4, 1986 to July 6, 1990. The bank failure dates for the 5
active receiverships ranged from June 1, 1990 to April 30, 1993. By January 2002, 3 of the 5
active receiverships in our sample were terminated. The dates of termination for the 9
terminated receiverships in our sample ranged from January 1, 2000 to January 1, 2002. The
average elapsed time from institution failure to termination was 10 years and 11 months, or
almost 11 years.

In developing the audit steps to review the receivership and termination files, we used the
information contained in the DRR Failed Institution Receivership Termination Manual, dated
April 1998, and in the Division of Finance’s (DOF) Field Finance Operations Accounting
Manual – Terminations, dated December 2000. For the 6 initial terminated receiverships, we
verified that DRR followed its stated process and that the files contained evidence of:
• Controls over employee benefit plans to deter fraud and abuse.
• Approved termination case signed by properly delegated DRR and DOF officials.
• Correspondence and opinions from the FDIC Legal Division on receivership litigation.
• Sales contract between the FDIC as “Receiver” and the FDIC, the “Corporation.”
• Published notice of intention to terminate the receivership.
• Clearance memoranda obtained from DRR, DOF, DOA, and the Legal Division.
• DRR termination instructions to DOF.
• Corporate Purchase and Assumption Agreement.
• Corporate Purchase Asset and Liability Listing.
• Calculation of the final dividend, if any.
• DOF General Ledger2 entries.
• Certificate of Termination.

1
    See explanatory note “b” to Table 1 for a discussion of goodwill litigation.
2
    A collection of all asset, liability, owners’ equity, revenue and expense accounts.


                                                           10
For the 5 active receiverships in the sample, we verified that DRR was attempting to
terminate the receivership in accordance with the stated process. We also verified that the
files contained evidence of the following:
• Open issues or impediments (e.g., litigation or environmental issues) that are preventing
    termination.
• Proper notice to creditors, subordinated debt holders,3 stockholders, and other interested
    parties of the FDIC’s intention to terminate a receivership.
• Elapsed time since the receivership’s inception.
• Value of remaining assets.
• Actions taken by DRR to resolve any impediments.

The scope of our second objective, to evaluate the integrity and reliability of data entered into
DRR's Receivership Termination System (RTS), included verification of data for the 11
receiverships in our sample. Specifically, we tested the data contained in the 27 fields (92
possible data elements) of the RTS Receivership and Milestone Dates screens.

We also obtained from DRR a list of staff with access to the RTS. The list contained 15 staff
with access at two levels: (1) read/write, and (2) read/write/delete. We tested one employee
from each of the two levels and verified that access was limited to the level specified.
Furthermore, two of the OIG audit staff, along with the termination coordinator, were tested
and verified to have “read only” access.

In addition to verifying the accuracy and consistency of the RTS information with that
contained in the receivership files, we also obtained and reviewed the following:
• The RTS Security Manual, Version 1.4 dated August 2000.
• The RTS User Manual, Version 1.4 dated August 2000.
• FDIC Corporate Security Controls Program Sensitivity Assessment Questionnaire.
• Office of Management and Budget Circular A-130 on Management of Federal
    Information Resources.

We arranged for direct access to the RTS database for purposes of verifying the RTS data to
the original file documentation. We obtained from DRR the receivership files for the active
and terminated receiverships in our sample. We also obtained from DOF the termination files
for the terminated receiverships in the sample. We cross-checked the information contained
in the DRR and DOF files and in the RTS for accuracy and consistency.

The scope of our third objective, to determine whether DRR's annual performance planning
indicators covered significant receivership termination activities, included a review of the
FDIC 2001-2006 Strategic Plan and FDIC Annual Performance Plans for 2000, 2001, and
2002. We reviewed the strategic goals, annual goals, and performance measure indicators and
targets for each year. We interviewed DRR officials located in both Washington, D.C., and
Dallas, Texas, to determine how the goals and performance measures were established. For
2000 and 2001, we compared the receivership termination results that DRR achieved to the
planned goals and performance measures. We also reviewed the requirements of the

3
    An obligation or liability to pay or render something to another, subject to the control or authority of another.


                                                           11
Government Performance and Results Act (GPRA) for developing strategic and performance
plans.

Use of Computer-Processed Data

Our second objective specifically addressed the integrity and reliability of the RTS. As
described above, we tested the RTS for accuracy and integrity of access. Because our tests
did not disclose any discrepancies, we were able to rely upon the information contained in the
database. The RTS is used as an information source and monitoring device by DRR
terminations staff. The RTS is not a mainframe database and, other than receiving
termination financial information from DOF, is not interconnected with other FDIC databases.
The RTS is a local system in Dallas and its use is restricted to DRR personnel who have
receivership termination responsibilities.

Management Controls Reviewed

We reviewed the following management controls related to the process for terminating
receiverships:
• The FDIC and DRR strategic and performance plans for 2000, 2001, and 2002 with regard
    to the establishment of performance planning indicators and targets for receivership
    termination activity. We also referred to the requirements of GPRA.
• Delegations of Authority as set forth in the Redelegations of Authority matrix that charts
    employee names and titles against the redelegated authority for several types of
    transactions, such as selling property, releasing collateral, paying court-ordered
    judgments, selling loans and securities, paying dividends, and terminating receiverships.
• RTS data entry and accuracy. We compared and verified the accuracy of RTS
    information with the receivership file documentation. We also tested RTS access controls
    at three different levels.

For the controls identified in the DRR and DOF manuals that follow, we confirmed that the
work was completed for the 6 terminated receiverships, where applicable, but we did not
review all of these processes and procedures.

•   The DRR Failed Institution Receivership Termination Manual that prescribes the
    procedures to be used in the receivership termination process, as follows:
    1. Identifying receiverships as candidates for termination.
    2. Identifying assets and due diligence.
    3. Collecting and reviewing case documentation. This task sets forth the information to
       be included in clearance memoranda on impediments to termination by the following
       DRR, DOF, DOA, and Legal Division program areas: Accounting, Asset Claims,
       Claims, Contracts, Employee Benefit Plans, Environmental, Investigations/PLS, Legal
       Division, Mortgage Servicing, Risk Management, Non-Asset Defensive Litigation,
       Securities/Capital Markets, Settlement, and Subsidiaries.
    4. Preparing and processing the termination case.
    5. Requesting for receivership to be placed in termination status (T-status).
    6. Coordinating the corporate purchase.


                                             12
    7. Signing corporate purchase and assumption agreement.
    8. Assigning corporate-purchased assets.
    9. Coordinating the final dividend distribution.
    10. Notifying stockholders, claimants, etc.
    11. Inactivating the receivership.
    12. Obtaining all necessary court approvals required for judicial terminations.
    13. Signing certificate of termination.
    14. Listing of termination file contents.

•   The DOF Field Finance Operations Accounting Manual – Terminations that sets forth
    procedures for the following:
    1. Requirements for judicial review.
    2. DOF process for pre-case approval.
    3. DOF process for receipt of an approved case.
    4. Corporate purchase procedures.
    5. Affordable housing review.
    6. Final dividends.
    7. Post-insolvency interest claims.
    8. Termination statements.
    9. Inactivation.
    10. Termination file contents.




                                               13
                                                                                APPENDIX II

SUMMARY OF PRIOR COVERAGE


The FDIC OIG and the former Resolution Trust Corporation (RTC) OIG conducted two
audits and one evaluation related to receivership termination activities:

1. RTC OIG Audit Report A95-DA-008, Dallas Terminated Receiverships dated September
   19, 1995. The audit involved two terminated receiverships; its objectives were to
   determine whether the terminations complied with RTC policies and procedures,
   appropriately accounted for final termination transactions, and properly accounted for the
   disposition of receivership assets during the termination process. The audit stated that the
   process had some disposition documentation problems in 1993, but a significant
   improvement in documentation was made in 1994. The report concluded that RTC
   complied with the termination policies and procedures and performed final transactions
   appropriately.

2. FDIC OIG Audit Report No. 97-052, Receivership Terminations in the Midwest Service
   Center, dated May 8, 1997. The audit involved five terminated receiverships. The
   objectives were to determine whether the final accounting was appropriate; legal,
   environmental, and tax matters were appropriately resolved; remaining assets were
   appropriately valued; and receivership accounting treatment was appropriate. The report
   stated that generally the five receiverships audited complied with receivership policies and
   procedures in effect at the time, appropriately completed termination actions, accounted
   for assets, and prepared appropriate journal entries. The report concluded that the OIG did
   not identify any conditions during the audit that would warrant a recommendation or
   auditee response.

3. FDIC OIG Evaluation Report No. 98-003, Review of the Division of Resolutions and
   Receiverships’ Reporting of Termination Activity in FDIC Quarterly Performance
   Reports, dated November 23, 1998. The objective was to evaluate the integrity and
   reliability of Receivership Termination System (RTS) data. The OIG concluded that the
   RTS was reliable and the termination case file adequately supported termination activity.




                                               14
                                                                                  APPENDIX III

PERTINENT LAWS, REGULATIONS, AND FDIC POLICIES AND PROCEDURES

1. Federal Deposit Insurance Act.

       Section 9 (a)1 states, “Upon the date of enactment of the Banking Act of 1933, the
       Corporation shall become a body corporate and as such shall have power…To act as
       receiver…To prescribe by its Board of Directors such rules and regulations as it may
       deem necessary to carry out the provisions of this Act or of any other law which it has the
       responsibility of administering or enforcing….”

2. DRR Failed Institution Receivership Termination Manual dated April 1998.

       The termination manual describes the receivership termination process and is divided into
       14 tasks that must be accomplished before termination is completed. The tasks are as
       follows:
       •     Identifying receiverships as candidates for termination,
       •     Identifying assets and performing due diligence,
       •     Collecting and reviewing case documentation from the various FDIC program
             areas,
       •     Preparing and processing the termination case,
       •     Placing receiverships in termination status (T-Status),
       •     Coordinating the purchase of receivership assets by the Corporation,
       •     Executing the Corporate Purchase and Assumption Agreement,
       •     Assigning properly the assets purchased by the Corporation,
       •     Determining the final dividend and coordinating its distribution,
       •     Providing proper notification to stockholders and claimants,
       •     Inactivating the receivership,
       •     Coordinating with the Legal Division to verify that all necessary court
             approvals have been obtained,
       •     Executing the Certificate of Termination, and
       •     Listing the termination file contents.

3. Division of Finance Field Finance Operations Accounting Manual – Terminations dated
   December 2000.

       The Division of Finance termination manual contains chapters on the responsibilities of
       the DRR and Legal Division, judicial review requirements, pre-case approval, processing
       of approved termination cases, corporate purchase procedures, affordable housing, final
       dividends, interest claims, termination financial statements, and inactivation procedures.




1
    FDI Act Section 9(a) is codified to 12 United States Code 1819(a)


                                                         15
4. Government Performance and Results Act of 1993 (Public Law 103-62) (GPRA).

       GPRA was enacted to improve the efficiency and effectiveness of federal programs by
       setting goals for program performance and to measure results. The FDIC is clearly
       covered by portions of GPRA. Section 306 (Strategic plans) states “the head of each
       agency shall submit to the Director of the Office of Management and Budget and to the
       Congress a strategic plan for program activities.” For purposes of GPRA, an “executive
       agency” is defined in 5 United States Code § 105, and includes government corporations,
       such as the FDIC.

       While the FDIC is subject to the GPRA, it is not subject to regulations promulgated by the
       Office of Management and Budget (OMB) under budget authority of 31 U.S.C. §1105,
       implementing GPRA requirements. GPRA requires each agency “carrying out provisions
       of §1105(a)(29)… to prepare an annual performance plan covering each program activity
       set forth in the budget of such agency.” OMB Circular A-11 implements this provision by
       requiring agencies in their performance plans to “display, generally by GPRA program
       activity, the amount of funding being applied to achieve the performance goals and
       indicators for that activity.” §220.8(d). OMB does not have authority to require the FDIC
       to submit its budget for approval. However, OMB’s performance plan requirement
       linking budgetary numbers and the performance plan is authorized by GPRA. Therefore,
       the FDIC has elected to submit budgetary information as part of its performance plan for
       purposes of GPRA compliance, while disclaiming that it is providing budget information
       for approval and review by OMB.

       Key elements of GPRA include:

       Section 306(c) 2 states, “The performance plan…shall be consistent with the agency’s
       strategic plan.”

       Section 1115(a)(1)3 states, “establish performance goals to define the level of performance
       to be achieved by a program activity….”

       Section 1115(a)(2) states, “express such goals in an objective, quantifiable, and
       measurable form….”

       Section 1115(a)(4) states, “establish performance indicators to be used in measuring or
       assessing the relevant outputs, service levels, and outcomes of each program activity….”




2
    GPRA Section 3(c) is codified to 5 United States Code 306
3
    GPRA Section 4 is codified to 31 United States Code 1115(a)(1), (a)(2), and (a)(4).




                                                         16
17
IMPEDIMENT           NO. OF IMPEDIMENTS             NO. OF RECS. AFFECTED

Accounting/Tax               11                             9
Assets                       11                             7
Claims                        3                             3
Employee Benefit Plans        1                             1
Environmental Issues         4                              4
Goodwill                     63                             63
Investigations/PLU           23                             14
Litigation                   67                             35
Mort. Servicing/LSFO         13                             6
Securities                   98                             22
Subsidiaries                 35                             26

As can be seen by the above number of impediments and receiverships affected by those
impediments, the Terminations Department is very familiar with the receiverships and has
refined and accounted for all impediments that affect the pre-2000 receiverships. As those
impediments are eliminated, the receiverships will be terminated.

Based on the above, we believe that twenty additional pre-2000 receiverships can be
terminated before the end of 2002.

RECOMMENDATION

That the Director, DRR:

2. Develop performance indicators and targets that include all active receiverships when
   formulating future annual performance plans.

DRR RESPONSE

We concur with this recommendation.

At the present time, the FDIC Corporate goal, which was established in 2002, is to inactivate
75% of receiverships managed through the Receivership Oversight Program within three
years of the failure date, starting with receiverships established in the year 2000.

Although the OIG is correct when they state that the Corporate goal omits the year 2002, it
should be noted that fifty-two receiverships have been terminated year-to-date, through
September 1, 2002. Furthermore, by reviewing the impediments for the remaining
receiverships, as previously stated, it is anticipated that an additional twenty receiverships
will be terminated by year-end 2002. It is believed that terminating a total of seventy-two




                                              18
receiverships in 2002 demonstrates that FDIC is focusing on all receiverships in order to
achieve timely termination results, even though a specific goal has not been established.

Finally, it should be pointed out that termination goals were first established approximately
five years ago in order to focus on all receiverships. The objectives of the previous goals
were to reduce the number of outstanding receiverships as well as the length of time they
remained opened. Since those goals were established, receiverships have been reduced from
over 800 to the present number of 149. Additionally, the average life of the newer
receiverships has been reduced from over seven years to less than three years. As a result of
the previous goals, we have developed processes that allow us to monitor all receiverships in
a manner that will promote timely termination of all receiverships.

During DRR’s normal goal setting process, DRR will set appropriate annual goals for the
termination or inactivation of all active receiverships, including setting internal goals for
receiverships which have not been terminated within three years of failure. DRR will
complete the process of goal setting by November 30, 2002.



cc:   Sharon M. Smith
      Marilyn Kraus
      Vijay G. Deshpande
      Gail Patelunas
      Stanley Ivie
      Giovanni Recchia
      Susan Whited
      Sandra White
      Fred Ozyp
      Robert Schoppe
      David Bolte
      Jacqueline Richardson




                                                        S:\INTREV\OIG\01-723 OIG REVISED FINAL 0911.doc




                                              19
